Audit of USAID/India’s Monitoring of the
Performance of Its HIV/AIDS Program

Audit Report No. 5-386-02-001-P

December 14, 2001




        Regional Inspector General/Manila
U.S. AGENCY FOR
  INTERNATIONAL
    Development
Performance Audits Division


December 14, 2001

MEMORANDUM
FOR:                Mission Director, USAID/India, Walter E. North

FROM:               RIG/Manila, Bruce N. Boyer /s/

SUBJECT:            Audit of USAID/India's Monitoring of the Performance of Its
                    HIV/AIDS Program (Report No. 5-386-02-001-P)

This is our final report on the subject audit. We reviewed your comments to
the draft report, made some revisions based on them, and included the
comments in their entirety as Appendix II.

The report contains five recommendations addressed to USAID/India. Based
on the Mission’s comments, a management decision has been reached on
Recommendation Nos. 1, 2.1, 4 and 5. These recommendations can be closed
when the Mission provides evidence to USAID’s Office of Management
Planning and Innovation that it has implemented the necessary actions.
Management decisions for Recommendation Nos. 2.2 and 3 have not yet been
reached.

I appreciate the cooperation and courtesies extended to my staff during the
audit.
______________________________________________________________________________________________________________________________________________________________________________________________________




Table of                                      Summary of Results                                                                                                                 3
Contents
                                              Background                                                                                                                         3

                                              Audit Objectives                                                                                                                   5

                                              Audit Findings

                                                            Did USAID/India monitor performance of its                                                                           6
                                                            HIV/AIDS program in accordance with Automated
                                                            Directives System (ADS) guidance?

                                                                           Need to Strengthen Results Framework and                                                              7
                                                                           Performance Monitoring Plan

                                                                           Need to Establish a Performance Measure for                                                           9
                                                                           Women Receiving Appropriate Sexually
                                                                           Transmitted Diseases (STD) Care

                                                                           Need to Establish Performance Measures for Field                                                      11
                                                                           Support Activities Funded by USAID/India

                                                            Is USAID/India achieving the intended results from its                                                               13
                                                            HIV/AIDS program?

                                                                           Intended Results Generally Being Achieved in                                                          14
                                                                           Tamil Nadu

                                                                           HIV/AIDS Program in Maharashtra Slow to Start                                                         18

                                                            What is the status of USAID/India’s efforts to meet                                                                  19
                                                            anticipated HIV/AIDS reporting requirements?

                                              Management Comments and Our Evaluation                                                                                             21

                                              Appendix I - Scope and Methodology                                                                                                 23

                                              Appendix II – Management Comments                                                                                                  25

                                              Appendix III –Rapid Scale-Up and Intensive Focus Countries                                                                         27

                                              Appendix IV – Summary of USAID/India’s Performance                                                                                 28
                                              Monitoring Controls
   _____________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                                                   2
______________________________________________________________________________________________________________________________________________________________________________________________________




Summary of
                                             USAID/India generally monitored performance in accordance with USAID’s
Results                                      Automated Directives System guidance. However, the Mission needs to
                                             strengthen its results framework and performance monitoring plan.
                                             Specifically, the Mission should revise its strategic objectives and
                                             intermediate results to more realistically reflect the intended results of its
                                             HIV/AIDS activities or establish performance indicators to directly measure
                                             progress towards its goals. The Mission should also establish performance
                                             measures to (a) assess whether the Mission is making progress on its goal to
                                             provide women with appropriate STD care, and (b) assess the development
                                             impact of its field support activities—which now receive a significant
                                             portion of USAID/India's HIV/AIDS funding. (See pages 6 to 13.)

                                              USAID/India has or is planning large-scale interventions in two Indian
                                              states: Tamil Nadu and Maharashtra. The audit found that in the state of
                                              Tamil Nadu, the Mission has exceeded its intended results related to condom
                                              use but has not fully achieved intended results related to the STD program.
                                              (See pages 13 to 17.) However, progress has been disappointing in the state
                                              of Maharashtra. With respect to interventions in Maharashtra, the Mission
                                              needs to ensure that the Government of India expeditiously satisfies the
                                              remaining condition precedent so that USAID-funded activities can begin.
                                              The Mission's $41.5 million HIV/AIDS program in this state has yet to
                                              start—even though the agreement with the host government was signed in
                                              September of 1999. (See page 18 to 19.)

                                              And finally, in response to increased Agency funding for HIV/AIDS, USAID
                                              has drafted new Monitoring & Evaluation Guidance. The guidance
                                              establishes several global targets and summarizes reporting requirements
                                              missions are responsible to meet using standard indicators. USAID/India
                                              intends to consider, to the extent resources allow, these requirements in its
                                              new strategic plan, which is currently underway. The Mission has already
                                              established some indicators similar to those required by the guidance. (See
                                              pages 19 to 21.)



                                             USAID funding for HIV/AIDS (Human Immunodeficiency Virus/Acquired
Background
                                             Immune Deficiency Syndrome) has increased dramatically over the past
                                             three years: from $142 million in fiscal year 1999 to over $300 million in
                                             fiscal year 2001 (see graph below) 1. USAID is organizing its response to
                                             HIV/AIDS around three categories of countries: rapid scale-up countries,

                                              1
                                                  Information in the graph was provided by USAID and is unaudited.




                                                                                                                                                                                                   3
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              intensive focus countries, and basic countries. These categories describe the
                                              resources that USAID will apply and the expectations on when a measurable
                                              impact might be achieved. (See Appendix III for description of these
                                              categories.)

                                                                                             USAID’s HIV/AIDS Funding
                                                                                                         By Fiscal Year
                                                                                                   (Amounts Unaudited)
                                                                                       350
                                                                                       300



                                                                 Millions of Dollars
                                                                                       250

                                                                                       200
                                                                                       150

                                                                                       100
                                                                                       50
                                                                                        0
                                                                                                 1999               2000               2001




                                              India, with a population exceeding 1 billion, is one of 13 intensive-focus
                                              countries. USAID plans to increase funding to intensive-focus countries to
                                              reduce prevalence rates, to reduce HIV transmission from mother to infant,
                                              and to increase support services for people with HIV/AIDS. Although India’s
                                              HIV/AIDS prevalence rate is estimated at less than one percent2 of the
                                              sexually active population, this represents about 4 million Indians who are
                                              infected with HIV. This means that India ranks along with South Africa as
                                              having the largest number of HIV-infected persons in the world. The primary
                                              mode of transmission in India is through heterosexual activity.

                                              At the time of the audit, the Mission’s principal on-going bilateral program was
                                              the $10 million AIDS Prevention and Control project in the state of Tamil Nadu.
                                              The project was created as a result of a tripartite agreement among the
                                              Government of India, USAID, and Voluntary Health Services, a non-
                                              governmental organization (NGO), in January 1995. The agreement runs
                                              through March 2002. The project carries out HIV/AIDS preventive activities
                                              through a network of 35 participating NGOs in 48 clusters across the state of
                                              Tamil Nadu. Project activities concentrate on reinforcing behavioral change
                                              among high-risk groups—including commercial sex workers and their clients,
                                              truckers/helpers, and slum dwellers—and on sexually transmitted diseases
                                              (STD) patients. Project activities include promoting the sale and use of
                                              condoms, and enhancing STD services and counseling.

                                              2
                                                  The HIV/AIDS prevalence rate is estimated at 0.82 percent.



                                                                                                                                                                                                   4
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              In addition, the Mission provided funding of approximately $1 million for
                                              HIV/AIDS-related activities under the Program for Advancement of
                                              Commercial Technology/Child and Reproductive Health. Activities under this
                                              program include providing loans and grants to the private sector for
                                              manufacturing and marketing testing kits for HIV, STDs, and tuberculosis.

                                              Also, in September 1999, USAID signed a bilateral agreement with the
                                              Government of India to carry out a seven-year, $41.5 million HIV/AIDS project
                                              (AVERT) in the state of Maharashtra. However, no activities have started.
                                              Finally, since 1998, the Mission has funded over $13 million in HIV/AIDS
                                              activities managed primarily by USAID’s Bureau for Global Programs, Field
                                              Support and Research in Washington under a cooperative agreement with
                                              Family Health International. These field support activities consisted primarily of
                                              studies, behavioral surveys, and general technical support—although a number
                                              of "model interventions" are now being developed. One such intervention seeks
                                              to address the needs of children vulnerable to and affected by the AIDS
                                              epidemic.



 Audit Objectives
                                              This audit is one of a series of audits being conducted worldwide of USAID’s
                                              monitoring of the performance of its HIV/AIDS program at the mission level.
                                              The Performance Audits Division of USAID’s Office of Inspector General
                                              (OIG) is leading the audits. The Regional Inspector General, Manila
                                              (RIG/Manila) conducted this audit.

                                              The audit objectives and the scope and methodology for the audit were
                                              developed in coordination with USAID’s HIV/AIDS Division in the Bureau for
                                              Global Programs, Field Support and Research. The Office of Inspector General
                                              performed this audit in India to review USAID/India’s HIV/AIDS program and
                                              specifically, to answer the following audit objectives:

                                              •       Did USAID/India monitor performance of its HIV/AIDS program in
                                                      accordance with Automated Directives System guidance?

                                              •       Is USAID/India achieving intended results from its HIV/AIDS program?

                                              •       What is the status of USAID/India’s efforts to meet anticipated HIV/AIDS
                                                      reporting requirements?

                                              Appendix I describes the audit’s scope and methodology.




                                                                                                                                                                                                   5
______________________________________________________________________________________________________________________________________________________________________________________________________




Recognition                                   RIG/Manila appreciates the cooperation and assistance of the Mission’s Health
                                              Team during the audit. A special thanks to Dr. Victor Barbiero, Dr. Dora
                                              Warren, Ms. BethAnne Moskov, Dr. Sanjay Kapur, Ms. Sheena Chhabra, and
                                              Gulshan Bhatla, and also to Dr. Bimal Charles and his staff for his assistance
                                              during our site visit to Tamil Nadu.



Audit Findings                                Did USAID/India monitor performance of its HIV/AIDS program in
                                              accordance with Automated Directives System (ADS) guidance?

                                              USAID/India generally monitored performance of its HIV/AIDS program in
                                              accordance with USAID’s Automated Directives System (ADS) guidance. The
                                              guidance outlines USAID’s policies and procedures for implementing a
                                              performance monitoring system. Required procedures include selecting
                                              indicators to monitor program performance, establishing baselines for the
                                              indicators, and preparing a performance monitoring plan (PMP). Among other
                                              things, a performance monitoring plan precisely defines the indicator, identifies
                                              data sources for the indicator, specifies how the data are to be collected, and
                                              describes procedures to be used to assess data quality.

                                              In accordance with the ADS, the Mission prepared a detailed performance
                                              monitoring plan3 that included most of the required information for the two
                                              indicators in the PMP: indicator descriptions, data sources, data collection
                                              methods, data collection schedules, assignment of responsibility, and disclosure
                                              of data limitations. In addition, the Mission established baselines and targets for
                                              the indicators in the plan, and data reported for the indicators agreed with data
                                              sources specified in the plan. (See Appendix IV.) The Mission documented its
                                              data quality assessment for the two indicators including procedures for
                                              reviewing survey methodology, survey results, design of the survey
                                              questionnaire and data collection process.

                                              The Mission also used other monitoring tools such as site visits and a mid-term
                                              evaluation of its AIDS Prevention and Control project. For fiscal year 2000,
                                              USAID/India’s performance monitoring plan included two performance
                                              indicators which it used to monitor its HIV/AIDS activities under this project:
                                              (1) Condom Use, and (2) Sexually Transmitted Diseases (STD) Care.

                                              However, the audit found several areas for improvement including (1) the need
                                              to strengthen the Mission HIV/AIDS “results framework” and its performance
                                              monitoring plan, (2) the need to establish a performance measure for women

                                              3
                                                  USAID/India updated its March 1996 performance monitoring plan by preparing a draft
                                                  PMP dated June 2001. During the audit, we assessed the June 2001 PMP.



                                                                                                                                                                                                   6
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              receiving STD care, and (3) the need to develop performance measures for field
                                              support activities funded by USAID/India. These areas are discussed in detail
                                              below.

                                              Need to Strengthen Results Framework and Performance Monitoring Plan

                                              ADS 201.3.4.13 states that as a rule of thumb, a mission should have two or
                                              three indicators per strategic element [i.e., per strategic objective (SO) and
                                              intermediate result (IR)]. The ADS goes on to say that if the strategic element is
                                              narrowly defined, a single indicator may be adequate. In addition, ADS
                                              201.3.4.5 defines an SO as the most ambitious and significant result that a
                                              USAID operating unit, along with its partners, can materially affect and for
                                              which it is willing to be held accountable. In other words, a strategic objective
                                              should be something which is within USAID’s “manageable interest,” i.e.,
                                              something that a USAID operating unit and its partners can reasonably achieve.
                                              However, the audit found that USAID/India had not established any indicators at
                                              all at the SO level and that the strategic objective and intermediate results set by
                                              the Mission were not entirely within its manageable interest.

                                              USAID/India includes its HIV/AIDS activities under the two-part strategic
                                              objective: “Reduced Transmission and Mitigated Impact of Infectious Diseases
                                              Especially STD/HIV/AIDS in India.” This strategic objective has two
                                              intermediate results: “Reduced Transmission of HIV/AIDS and Related
                                              Infectious Diseases in Tamil Nadu,” and “Reduced Transmission of HIV/AIDS
                                              and Related Infectious Diseases in Maharashtra.” (See map below which
                                              shows the location of Tamil Nadu and Maharashtra.)




                                                                                                    INDIA


                                                                         Maharashtra




                                                                                                              Tamil Nadu

                                                                      USAID/India currently funds HIV/AIDS activities in the
                                                                      state of Tamil Nadu. At the time of the audit HIV/AIDS
                                                                      activities had not yet begun in Maharashtra.

                                                                                                                                                                                                   7
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              USAID guidance defines intermediate results as discrete results or outcomes
                                              thought to be necessary to achieve an objective or another intermediate result
                                              critical to achieving the objective. The schematic below reflects the
                                              relationship between the strategic objective and the two intermediate results.


                                                                                  USAID/India HIV/AIDS Strategic
                                                                                   Objective Results Framework


                                                                                              Strategic Objective

                                                                                          Reduced Transmission and
                                                                                          Mitigated Impact of
                                                                                          STD/HIV/AIDS in India




                                                                      Intermediate Result                             Intermediate Result
                                                                     Reduced transmission                            Reduced transmission
                                                                     of HIV/AIDS and                                 of HIV/AIDS and
                                                                     related infectious                              related infectious
                                                                     diseases in Tamil Nadu                          diseases in Maharashtra




                                              Currently, the Mission’s results framework and its performance monitoring plan
                                              include only two indicators: (1) “Percentage of individuals belonging to
                                              specified high-risk groups who report condom use in most recent sexual
                                              encounter with a non-regular partner,” and (2) “Percentage of population with
                                              symptomatic STDs seeking care from qualified medical practitioners.” Both of
                                              these indicators are at the intermediate results level, for the activities the Mission
                                              is carrying out in Tamil Nadu.

                                              However, the performance monitoring plan does not have any performance
                                              indicators at the strategic objective level. Also, the current strategic objective
                                              and intermediate results may be too ambitious given the Mission’s HIV/AIDS
                                              activities. Notably, the first part of the strategic objective refers to reducing
                                              transmission in all of India, even though, to date, most of USAID/India’s
                                              activities are limited to only one of the Indian states (Tamil Nadu). In addition,
                                              it is not clear what “mitigating the impact of HIV/AIDS” (the second part of the
                                              strategic objective) means, and it is not included in either of the intermediate
                                              result objectives.

                                              Moreover, a more direct measure of the strategic objective and intermediate
                                              result goal to “reduce the transmission of HIV/AIDS” would be to report on
                                              HIV- prevalence rates. Although the Government of India collects HIV-
                                              prevalence data annually, the Mission elected not to use this data. Rather, the



                                                                                                                                                                                                   8
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              Mission’s performance monitoring plan only includes behavioral-type measures
                                              (condom use and population seeking STD care). While such indicators are
                                              valuable, they are not a direct measure of whether the transmission of HIV/AIDS
                                              has been reduced. Given that the Mission’s activities (e.g., promoting condom
                                              use in high risk groups and encouraging individuals with STD symptoms to seek
                                              appropriate care) focus on behavioral change, we believe that the Mission may
                                              need to scale down its strategic objective and intermediate results to better reflect
                                              the results of its activities.

                                              Mission officials gave several reasons for not having indicators at the strategic
                                              objective level. USAID/India health officials stated that the two behavioral-type
                                              indicators included in their performance monitoring plan are widely accepted as
                                              good proxy indicators that progress is being made on the intended results. They
                                              were also not aware of the general rule of having two to three indicators for each
                                              strategic framework element. Furthermore, we believe that the Mission may
                                              have been overly ambitious in setting the high-level goal of reducing the
                                              transmission of HIV/AIDS in India given their existing activities.

                                              Without direct measures, USAID will not be able to determine whether the
                                              intended results have been achieved. In addition, this could result in the Mission
                                              and other stakeholders (i.e., USAID management, the Congress, and others)
                                              making incorrect conclusions and/or decisions.

                                                            Recommendation No. 1: We recommend that USAID/India
                                                            either establish indicators for the current strategic objective
                                                            and intermediate results that directly measure progress
                                                            towards these goals, or scale down the strategic objective and
                                                            intermediate results to better reflect the intended results of
                                                            its activities.


                                             Need to Establish a Performance Measure for Women Receiving
                                             Appropriate Sexually Transmitted Diseases (STD) Care

                                             One of the goals of the AIDS Prevention and Control (APAC) project is to
                                             enhance STD services and counseling for both men and women. The project’s
                                             key interventions to achieve this goal are STD training for health care providers,
                                             STD counseling and referrals for patients, and increasing access to rapid
                                             laboratory tests for STD diagnosis. These interventions are included in the
                                             project because individuals infected with STDs are more vulnerable to
                                             contracting and transmitting HIV/AIDS. ADS 203.3.6.5 requires operating units
                                             to use performance indicators that are consistent and comparable over time.
                                             Nevertheless, over the years, the Mission has inconsistently collected and
                                             reported on differing groups of men and women who received treatment for
                                             STDs—with data on women being dropped entirely starting in 1999.



                                                                                                                                                                                                   9
______________________________________________________________________________________________________________________________________________________________________________________________________




                                                               A female health care provider trained under the APAC project
                                                                    (June 2001, Kancheepuram Town, Tamil Nadu, India)

                                             The Mission established the following indicator to measure STD treatment in
                                             men and women in 1996: “Percentage of population with symptomatic STDs
                                             seeking care from qualified medical practitioners.” Per the Mission’s
                                             performance monitoring plan, the indicator definition has not changed since that
                                             time, but the groups being measured and reported on, have changed over the
                                             years.

                                             For 1996 and 1997, the Mission reported results on this indicator based on
                                             surveying four high-risk groups: female commercial sex workers, male truckers
                                             and helpers, male factory workers, and male students4. However, in 1998, the
                                             Mission dropped male students from the indicator, and in 1999, the Mission
                                             dropped female commercial sex workers, leaving only male truckers and helpers,
                                             and male factory workers. Therefore, the groups measured for this indicator
                                             have not been consistent over the years. Such data limitations are required to be
                                             included in a mission’s Results Review and Resource Request (R4) report—the
                                             most significant performance report that the operating units send to their
                                             respective bureaus. The R4 report, however, did not specifically indicate that the
                                             basis for the summary data had changed over the years. The data in the R4
                                             report is used for a variety of purposes, such as internal analyses, responding to


                                             4
                                                 The R4 included results for the individual groups—as well as a summary arithmetic average
                                                 for the groups overall.




                                                                                                                                                                                                10
______________________________________________________________________________________________________________________________________________________________________________________________________




                                             external inquiries, and USAID-wide reporting. Therefore, it is particularly
                                             important that the data be complete, accurate and consistent.

                                             Mission officials stated that they stopped reporting on male students because this
                                             group was not considered to be as high-risk as other groups. They also
                                             mentioned that they stopped reporting on female commercial sex workers
                                             because obtaining accurate information on female STD patients was more
                                             difficult compared to male STD patients, since STDs are often asymptomatic in
                                             women. In fact, according to the mid-term evaluation of APAC project, 50
                                             percent of STDs are asymptomatic in women.

                                             We acknowledge that it may be more difficult to obtain accurate information
                                             on female STD patients. Nevertheless, one of the goals of the AIDS
                                             Prevention and Control project is to enhance STD services and counseling for
                                             both men and women. In addition, UNAIDS and USAID HIV/AIDS
                                             monitoring guides5 suggest using an STD indicator which includes reporting
                                             on both men and women. We, therefore, believe that the Mission needs to
                                             establish an appropriate performance measure that will assess whether women
                                             are receiving appropriate STD care. Otherwise, the Mission will not know
                                             whether it is making progress on achieving one of its important project goals.

                                                            Recommendation No. 2: We recommend that USAID/India:

                                                            2.1 include an appropriate performance measure in its
                                                                performance monitoring plan to measure whether
                                                                women are receiving appropriate Sexually Transmitted
                                                                Diseases care, and

                                                            2.2 disclose known data limitations, including inconsistency
                                                                in reporting, in upcoming annual reports describing
                                                                program progress.


                                              Need to Establish Performance Measures for
                                              Field Support Activities Funded by USAID/India

                                              USAID’s Results Review and Resource Request (R4) report guidance requires
                                              missions that request and fund "field support activities" to capture and report
                                              the development impact of these activities in their R4 reports. In addition,
                                              ADS 201.3.4.13 calls for missions to utilize the performance monitoring plan
                                              to define specific performance indicators, and to plan and manage the R4 data

                                             5
                                                  Joint United Nations Programs on HIV/AIDS (UNAIDS) National AIDS Programs, A Guide
                                                 to Monitoring and Evaluation, dated June 2000, and USAID's Handbook of Indicators for
                                                 HIV/AIDS/STI Programs, dated March 2000.




                                                                                                                                                                                                11
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              collection process. We conclude therefore the Mission's performance
                                              monitoring plan should contain indicators for significant field support
                                              activities.

                                              Field support activities are commodities and services (e.g., technical
                                              assistance) provided to field mission through USAID's Bureau for Global
                                              Programs, Field Support and Research (Global Bureau). Under this
                                              mechanism, missions acquire assistance through the provision of funds to the
                                              Global Bureau, which, in turn, procures the commodities or services under an
                                              existing contract or grant. Bilateral funds, on the other hand, are funds that
                                              are already managed by a mission.

                                              As shown in the following chart, funds have been obligated for bilateral and
                                              field support HIV/AIDS activities as follows:



                                                                                         USAID/India's HIV/AIDS Funding
                                                                                                  (Amounts Unaudited)
                                                                              7

                                                                              6
                                                      (Millions of Dollars)




                                                                              5

                                                                              4
                                                                                                                                                                Bilateral
                                                                              3                                                                                 Field Support

                                                                              2

                                                                              1

                                                                              0
                                                                                  1998     1999       2000              2001




                                              Obligations for field support activities have increased dramatically from
                                              $500,000 in 1998 to $6 million in 2001, while bilateral funding has leveled
                                              off. However, the Mission has not yet developed measures for field support
                                              activities. While the Mission’s PMP includes two performance measures for
                                              its bilateral funding activities, it does not include any performance measures
                                              for field support activities, which are now becoming a more significant
                                              portion of total HIV/AIDS funding.

                                              The Mission has not reported on the development impact of field support
                                              activities for a number of reasons. The main reason is that these funds are not
                                              managed by the Mission, but rather are managed primarily by the Global
                                              Bureau in Washington. Mission officials stated that the Mission is responsible
                                              for monitoring field support activities, but are not responsible for measuring


                                                                                                                                                                                                12
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              results of those activities. Also they pointed out that the bulk of field support
                                              activities to date have consisted of studies, behavioral surveys and general
                                              technical assistance with specific interventions only just getting started. And
                                              finally, the Mission was not aware that the development impact of field
                                              support activities needed to be included in R4 reporting.

                                              While some of these general field support activities in fact related to general
                                              technical assistance and to supporting the Mission's bilateral activities, a
                                              significant portion of the field support funding is now slated for other
                                              HIV/AIDS interventions. Two examples are programs for children affected
                                              by HIV/AIDS and for HIV/AIDS interventions in the business community.

                                              Of these field support activities the furthest along are programs for children
                                              affected by AIDS. Family Health International, a U. S. non-profit
                                              organization, has already signed sub-agreements with six indigenous non-
                                              governmental organizations to carry out interventions to address the needs of
                                              children vulnerable to and affected by the AIDS epidemic. These six sub-
                                              agreements alone are currently budgeted at $440,000 per year.

                                              Without performance measures for the field support activities, USAID/India
                                              will be unable to assess the development impact of a significant portion of its
                                              HIV/AIDS funding, including having a systematic means of monitoring the
                                              activities and assessing progress. Without performance measures, it may be
                                              difficult to judge how effective these interventions are, and whether such
                                              interventions merit expansion to other regions. Having performance measures
                                              in place will be increasingly important since funding for field support has
                                              been increasing in recent years.

                                                            Recommendation No. 3: We recommend that USAID/India
                                                            include performance measure(s) for significant field support
                                                            activities in its performance monitoring plan.


                                             Is USAID/India achieving intended results from its HIV/AIDS
                                             program?

                                              USAID/India did not directly measure intended results per its strategic
                                              objective results framework (see pages 6-9). Nevertheless, in the state of
                                              Tamil Nadu, the Mission is exceeding its intended results related to condom
                                              use but has not fully achieved intended results related to the STD program. In
                                              addition, in the state of Maharashtra, as of September 2001, USAID/India's
                                              program had yet to get off the ground.

                                              Even though the program in Tamil Nadu uses a number of measures to
                                              monitor progress, the Mission elected to use only two key indicators in its



                                                                                                                                                                                                13
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              performance monitoring plan to report program results. The intended results
                                              for these two indicators were to increase condom use among high-risk groups
                                              from 37 percent in 1996 to 57 percent in 2000 and increase STD care seeking
                                              behavior from 52 percent in 1996 to 72 percent in 2000 (see tables below).
                                              According to Mission data, the Mission met its fiscal year 2000 target for
                                              condom use, but did not meet its target for STD care. In addition, the mid-
                                              term evaluation of the program in the state of Tamil Nadu, dated May 2000,
                                              concluded that the project has already achieved most of the program’s
                                              objectives. With regard to results in Maharashtra, the Mission has not yet
                                              established performance measures because planned activities have yet to start.
                                              The Tamil Nadu and Maharashtra programs are discussed in separate sections
                                              below.

                                              Intended Results Generally Being Achieved in Tamil Nadu

                                              For the AIDS Prevention and Control (APAC) project in the state of Tamil
                                              Nadu, USAID/India has established two key performance indicators to
                                              measure its progress:

                                              •       Percentage of individuals belonging to specified high-risk groups who
                                                      report condom use in the most recent sexual encounter with a non-regular
                                                      partner, and

                                              •       Percentage of population with symptomatic STDs seeking care from
                                                      qualified medical practitioners.

                                              The Mission funds an annual HIV Risk Behavior Surveillance Survey (BSS)
                                              to track and report performance results on these two indicators. The survey is
                                              conducted by the A. C. Neilsen Research Service of Tamil Nadu to obtain
                                              trends on high-risk sexual behavior among selected population groups
                                              including female commercial sex workers, truckers and helpers, male patients
                                              attending STD clinics, and male and female factory workers. Total sample
                                              size covered among the various sub-population groups was 13,700. A. C.
                                              Neilsen conducted the survey in a sample of 12 towns from which NGOs
                                              implement interventions. A. C. Neilsen used standard questionnaires to
                                              collect data through interviews and focus group discussions.

                                              During the audit, we performed limited testing on data reported for the two
                                              key indicators to verify the accuracy of data transcription and to confirm that
                                              reported performance results were supported by source documents. We also
                                              reviewed results reported for other Survey indicators to see whether these
                                              results were consistent with what was reported for the two key indicators.

                                              Condom Use – Condom use is measured as a percentage of the population in
                                              high-risk groups using condoms in the last sexual encounter. The reported result



                                                                                                                                                                                                14
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              of 60 percent for fiscal year 2000 represents a simple arithmetic average of three
                                              high-risk groups including truckers and helpers, commercial sex workers, and
                                              male STD clinic attendees. As shown in the following table, condom use has
                                              been increasing. Notably, the Mission exceeded its target of 57 percent for fiscal
                                              year 2000, reporting that 60 percent used condoms in the most recent sexual
                                              encounter with a non-regular partner.


                                                                                                     Condom Use in High-Risk
                                                                            Year                            Groups
                                                                                                                        (Percentage)
                                                                                                        Target                             Actual
                                                                              1996                        N/A                                  37
                                                                              1997                        42                                   47
                                                                              1998                        47                                   53
                                                                              1999                        52                                   57
                                                                              2000                        57                                   60
                                                                              2001                        65                                    -


                                              Results reported in the APAC project's mid-term tend to support the data on
                                              condom use. The project’s mid-term evaluation reported an increase in the
                                              commercial sales of condoms from 15.6 million in 1995 to 31 million in 2000,
                                              and an increase in the number of retail outlets marketing condoms from 17,600
                                              in 1996 to 35,400 in 1999. In other words, condom sales are rising in tandem
                                              with condom use data. The mid-term evaluation also noted other successful
                                              condom use promotion interventions. These include communication efforts
                                              through mass media, street theater, condom use education, counseling, training
                                              of health care providers, and access to free educational materials and kits
                                              through NGOs.

                                              During the audit, we obtained supporting condom sales reports and visited
                                              program sites in the state of Tamil Nadu to review activities and confirm the
                                              conclusions of the mid-term evaluation. We also reviewed other indicators in
                                              the annual Survey, which reported results consistent with increasing condom
                                              use. Based on these observations, we conclude that the Mission is making
                                              progress in increasing condom use in Tamil Nadu.




                                                                                                                                                                                                15
______________________________________________________________________________________________________________________________________________________________________________________________________




                                                                  An owner of a small retail outlet displaying condoms for sale
                                                                    (June 2001, Kancheepuram Town, Tamil Nadu, India)

                                              STD Care – The project's progress under this indicator is measured by the
                                              increased percentage of STD-infected individuals belonging to high-risk groups
                                              who seek treatment. Notably, the presence of Sexually Transmitted Diseases
                                              places individuals who practice unprotected sex at a higher risk of transmitting
                                              HIV; per project documentation, prevention and early treatment of STDs can be
                                              an effective measure to contain the HIV epidemic6. The reported result of 65
                                              percent for fiscal year 2000 represents a simple arithmetic average of two high-
                                              risk groups: (1) truckers and helpers (86 percent) and (2) male factory workers
                                              (45 percent).7 However, as the table below indicates, the Mission did not
                                              achieve the planned performance goal of 72 percent for fiscal year 2000—
                                              although per Mission data, the Mission had exceeded its targets in the three prior
                                              years.




                                             6
                                                 Quality STD Care—Training Module for Private Medical Practitioners, October 1998 (page
                                                 32), AIDS Prevention and Control, Voluntary Health Services.
                                             7
                                                 During the survey, data were collected for each group separately. The Mission then took a
                                                 simple average of these two groups for reporting on the indicator.



                                                                                                                                                                                                16
______________________________________________________________________________________________________________________________________________________________________________________________________




                                                                            Year                STD Care in High-Risk Groups
                                                                                                                        (Percentage)
                                                                                                        Target                             Actual
                                                                              1996                        N/A                                  52
                                                                              1997                        57                                   67
                                                                              1998                        62                                   77
                                                                              1999                        67                                   71
                                                                              2000                        72                                   65
                                                                              2001                        77                                    -


                                              While 86 percent of truckers and helpers surveyed reported that they sought
                                              medical treatment for STD symptoms, only 45 percent of male factory workers
                                              sought such treatment. In fact, the results for male factory workers have
                                              exhibited a downward trend since 1997.

                                              According to Mission officials, the under-performance of STD care in 2000 was
                                              due to the fact that the AIDS Prevention and Control project has been slow in
                                              implementing STD care interventions among the industrial workers even though
                                              this high-risk group has been included in the BSS survey since 1996. The
                                              Mission has recognized this shortfall in its last two R4 reports. Mission officials
                                              stated that the project has focussed interventions among other groups such as
                                              STD-infected truckers and helpers since the Behavior Surveillance Survey has
                                              showed them to be at higher risk for HIV transmission. Also, Mission officials
                                              mentioned that the Project has been aware of this shortfall and, hence, has
                                              recently conducted a Situational Assessment Study of industrial workers to gain
                                              an understanding of this group's sexual behavior and to plan interventions
                                              accordingly8.

                                              If the Mission does not implement interventions to contain STD infection among
                                              male factory workers on a timely manner, this group could transmit
                                              STD/HIV/AIDS into the general public in a state that already has an adult HIV
                                              prevalence rate of 1.6 percent9. In addition, timely interventions in the male
                                              factory workers cohort could help the Mission meet its targets in future years.

                                                            Recommendation No. 4: We recommend that USAID/India establish
                                                            a timeframe to begin Sexually Transmitted Diseases Care
                                                            interventions among male factory workers in the state of Tamil
                                                            Nadu.

                                              8
                                                   Situational Assessment of the Industrial Workforce (State of Tamil Nadu), Report on the
                                                   Quantitative and Qualitative Findings, Taylor Nelson Sofres MODE, dated June 15, 2001.
                                              9
                                                   According to year 2000 HIV Sentinel Survey conducted by the state of Tamil Nadu, the 1.6
                                                   percent prevalence rate in Tamil Nadu is almost double the national average of 0.82
                                                   percent.



                                                                                                                                                                                                17
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              HIV/AIDS Program in Maharashtra Slow to Start

                                              On September 15, 1999, USAID/India and the Government of India (GOI)
                                              signed a bilateral agreement for USAID/India’s HIV/AIDS project in the state of
                                              Maharashtra. The agreement called for USAID to provide $41.5 million to
                                              Maharashtra over seven years to combat that state’s growing HIV/AIDS
                                              epidemic. The state of Maharashtra accounts for about 50 percent of HIV/AIDS
                                              cases reported in India. The project, called “AVERT”, requires the GOI to
                                              satisfy four conditions precedent before receiving any USAID funding.
                                              However, when the audit began in June 2001, the GOI had not satisfied all the
                                              conditions precedent necessary to release project funds, and no interventions had
                                              yet begun.

                                              Under the bilateral agreement, project funds were not to be disbursed before
                                              the GOI met four conditions precedent10:

                                              !             provide names and signatures of individuals acting on behalf of the
                                                            GOI;

                                              !             complete key steps in operationalizing a Project Management Society
                                                            (PMS) to implement the program including: (a) the registration of the
                                                            Project Management Society, (b) signing a tripartite agreement for
                                                            project implementation11, and (c) appointment of key project staff
                                                            including a project director;

                                              !             provide evidence of the establishment by PMS of procedures for
                                                            awarding grants and contracts; and

                                              !             receive written confirmation that the Mumbai Municipal Corporation
                                                            has provided adequate office space to house the PMS.

                                              The agreement initially specified that the Government of India was to meet all
                                              the above conditions precedent within 90 days from the date the agreement
                                              was signed. The agreement was amended five times to extend the terminal
                                              date for meeting the conditions precedent which at the time of the audit was
                                              September 15, 2001.



                                              10
                                                   In November 2000, the GOI and USAID amended the bilateral agreement to revise the
                                                    disbursement arrangement. The amendment allowed for splitting the conditions precedent
                                                    into two sets and permitted the disbursement of up to $1 million of project funds upon
                                                    satisfying two of the four conditions precedent.
                                             11
                                                   The tripartite agreement is among the India National AIDS and Control Organization,
                                                   USAID and the PMS.



                                                                                                                                                                                                18
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              The GOI has made progress to satisfy the conditions that allowed the Mission
                                              to make the first disbursement in August 2001. This disbursement, totaling
                                              about $273,000, relates to reimbursing the Government of India for pre-award
                                              costs incurred to renovate office space for housing the PMS —costs which the
                                              Mission indicated it had, before signing the bilateral agreement, verbally
                                              agreed to pay12. As of September 15, 2001, the Government of India had met
                                              all conditions precedent except for providing evidence that PMS has a system
                                              in place for awarding grants and contracts.

                                             As a result of the delay in the Government of India satisfying the conditions
                                             precedent, the Mission has been unable to start HIV/AIDS activities in
                                             Maharashtra, and project implementation has been held up for two years. The
                                             Mission attributes the delay in implementing the program to the difficulty of
                                             developing a satisfactory project framework and working out details between
                                             India’s central and state governments and to the bureaucracies of both
                                             Government of India and USAID. The Mission concluded that the agreement
                                             had to be substantially restructured and believes that it was able to finally
                                             reach a satisfactory agreement with concerned parties. The Mission now
                                             expects to start implementation activities in early 2002. To help ensure that
                                             the GOI expeditiously meets the remaining condition precedent, we are
                                             making the following recommendation.

                                                            Recommendation No. 5: We recommend that USAID/India
                                                            coordinate with the Government of India to set a timeframe to meet
                                                            the remaining condition precedent in order to start HIV/AIDS
                                                            interventions in Maharashtra.


                                              What is the status of USAID/India’s efforts to meet anticipated
                                              HIV/AIDS reporting requirements?

                                              According to USAID/India officials, the Mission will take into consideration
                                              the anticipated reporting requirements when developing its new strategic plan,
                                              which is currently underway. These requirements are included in "USAID’s
                                              Expanded Response to the Global HIV/AIDS Pandemic—Monitoring and
                                              Evaluation Guidance.” This guidance, while still in draft form, had
                                              nevertheless been widely circulated and discussed within USAID and is
                                              expected to be finalized in the near future. The guidance includes establishing
                                              and reporting on a limited number of key HIV/AIDS indicators—both at
                                              national and program-specific level, the use of standard indicators to monitor
                                              progress, and the specification of targets for achieving these changes in


                                              12
                                                   In a Memorandum dated August 17, 2001, a USAID Regional Legal Advisor stated that in
                                                    his view renovation costs were "allowable, necessary and reasonable."



                                                                                                                                                                                                19
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              countries which are receiving increased funding for their HIV/AIDS
                                              programs.

                                              Due to the significant increase in HIV/AIDS funding from 1999 to 2001 (see
                                              chart on page 4), there has been a great deal of interest in monitoring the
                                              results of USAID assistance. In March 2000 USAID’s Global Bureau
                                              developed a handbook of standard indicators that operating units could use to
                                              measure the progress of their HIV/AIDS programs. In March 2001, the U.S.
                                              General Accounting Office (GAO) issued its report on USAID’s fight against
                                              AIDS in Africa and the need to be able to better monitor progress. The GAO
                                              report recommended that USAID units adopt standard indicators to measure
                                              program performance, gather performance data on a regular basis, and report
                                              data to a central location for analysis.

                                              In response to the increased funding for HIV/AIDS programming, USAID
                                              initiated a “rapid response” program to allocate these funds. USAID’s draft
                                              “Monitoring and Evaluation Guidance” would establish several global targets
                                              that USAID would need to achieve because of the additional funding and
                                              would require missions to routinely monitor and evaluate their HIV/AIDS
                                              programs in a definitive, systematic way and to report on their progress. As
                                              an intensive focus country, the draft guidance would require USAID/India to
                                              implement this enhanced monitoring and reporting system. The system would
                                              collect and report information at three levels:

                                              •       At the first level, USAID/India would be required, by 2007, to develop a
                                                      national sentinel surveillance system to report annually on HIV incidence
                                                      rates so as to measure the overall effect of national HIV/AIDS prevention
                                                      and mitigation programs. The standard indicator for this measurement,
                                                      according to the draft guidance, would be HIV seroprevalence rates for
                                                      15-24 year olds. USAID/India officials stated that the Government of
                                                      India has a national surveillance system to report national HIV
                                                      seroprevalance rates for the sexually active population (between 14-49
                                                      years old).




                                                                                                                                                                                                20
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              •       The second level would require the implementation of frequent (every 3-5
                                                      years) standardized national sexual behavior surveys to begin in 2001.
                                                      Standard indicators proposed in the draft guidance for this area are “number
                                                      of sexual partners” and “condom use with last non-regular partner.”
                                                      USAID/India officials mentioned that under the APAC project, an annual
                                                      Behavioral Sentinel Surveillance (BSS) study in selected towns in the state
                                                      of Tamil Nadu has been conducted since 1996. This BSS survey conducted
                                                      in Tamil Nadu collects data on the two proposed indicators. Mission
                                                      officials stated that the Government of India conducts an annual National
                                                      HIV Sentinel Surveillance. However, they added that the Government of
                                                      India does not yet have a protocol on behavioral surveillance.

                                              •       At the third level, Missions would be required to report annually, not only
                                                      on trends at the national level—which may or may not directly reflect
                                                      USAID-funded activities—but on progress toward implementing
                                                      USAID’s HIV/AIDS programs and increasing the proportion of the target
                                                      population covered by these programs. The draft guidance lists seven
                                                      standard indicators that missions might use to measure progress in
                                                      selected program areas. USAID/India is presently reporting data similar
                                                      to two of the standard indicators under the APAC project in Tamil Nadu
                                                      (Percentage of Sexually Transmitted Diseases cases treated according to
                                                      national standards; and Percentage of individuals belonging to specified
                                                      high-risk groups who report condom use in most recent sexual encounters
                                                      with a non-regular partner).

                                              In summary, Mission officials stated that they would attempt to meet the
                                              anticipated reporting requirements to the extent resources allow. The
                                              Government of India already has an HIV surveillance system to report
                                              national data.


 Management
 Comments and                                 In response to our draft report, USAID/India provided written comments that
                                              are included in their entirety as Appendix II. Based on the Mission’s
 Our Evaluation
                                              comments, management decisions have been reached on Recommendation
                                              Nos. 1, 2.1, 4 and 5. These recommendations can be closed when the Mission
                                              provides evidence to USAID’s Office of Management Planning and
                                              Innovation that it has implemented the necessary actions. Management
                                              decisions for Recommendation Nos. 2.2 and 3 have not yet been reached.

                                              Regarding Recommendation No.1, USAID/India agreed to either establish
                                              appropriate performance indicators for the strategic objective or scale down the
                                              strategic objective and intermediate results. For Recommendation No. 2.1, the
                                              Mission agreed to include a performance measure in its performance monitoring
                                              plan to measure whether women are receiving appropriate Sexually Transmitted



                                                                                                                                                                                                21
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              Diseases care. With respect to Recommendation No. 4, the Mission stated that
                                              the APAC project expects to start STD care interventions among factory workers
                                              by July 2002.

                                              As for Recommendation No. 5, USAID/India stated that the Government of
                                              India should meet all pending conditions precedent by December 31, 2001
                                              pertaining to the HIV/AIDS program in Maharashtra. Furthermore, subgrants to
                                              non-governmental organizations should begin by June 2002.

                                              In response to Recommendation No. 2.2, the Mission suggested that the
                                              recommendation be dropped since R4 reporting has now been discontinued in
                                              favor of a somewhat different "Annual Report". Because the Agency has just
                                              decided to eliminate the R4, we have modified the recommendation to disclose
                                              known data limitations in "upcoming annual reports describing program
                                              progress." This recommendation remains open pending agreement with the
                                              Mission.

                                              Finally, for Recommendation No. 3, USAID/India acknowledged that
                                              monitoring of field support funds is critical and noted that final management
                                              authority for field support activities is vested in USAID/Washington. The
                                              Mission said it is consulting with USAID/Washington for guidance on the
                                              Agency’s view on this subject. We agree that consultation with
                                              USAID/Washington is desirable and recognize that recent changes in annual
                                              reporting procedures (since the audit concluded) may affect what the Mission
                                              reports externally. Nevertheless, we believe that the Mission's internal PMP
                                              should at the very least include a performance measure for the children affected
                                              by HIV/AIDS interventions. This recommendation remains open pending
                                              agreement with the Mission on actions to be taken.




                                                                                                                                                                                                22
______________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                              Appendix I


Scope andand
  Scope                                       Scope
Methodology
                                              RIG/Manila conducted this audit in accordance with generally accepted
                                              government auditing standards. The purpose of the audit was to determine
                                              (1) if USAID/India was monitoring performance of its HIV/AIDS program in
                                              accordance with ADS guidance, (2) if USAID/India is achieving intended
                                              results from its HIV/AIDS programs, and (3) the status of efforts to improve
                                              reporting on the results of the Mission’s HIV/AIDS programs.

                                              The audit covered the two HIV/AIDS indicators in USAID/India’s
                                              performance monitoring plan. Determination if intended results had been
                                              achieved was based on (1) whether the Mission met its fiscal year 2000 targets
                                              for the two indicators, (2) reviewing activities implemented under the APAC
                                              project in the state of Tamil Nadu, including whether the project achieved the
                                              intended objectives as stated in the tripartite agreement, and (3) whether the
                                              Mission was progressing on the start up of the AVERT project in
                                              Maharashtra. In evaluating the intended results we recognized that in many
                                              cases other entities—as well as the host country—also participate in achieving
                                              these results. Fieldwork was conducted between June 11 to September 14,
                                              2001 at the USAID/India Mission, Family Health International in New Delhi
                                              and in the state of Tamil Nadu.

                                              We used performance results reported in the Behavioral Sentinel Surveillance
                                              Survey to measure results for the two indicators included in the PMP. We
                                              performed limited testing to ascertain the accuracy of the survey data and
                                              reported results. Our review of management controls focused on
                                              USAID/India’s performance monitoring plan and how well the Mission
                                              complied with USAID policies and guidance.

                                              Methodology

                                              To answer the first audit objective, we reviewed the Mission’s performance
                                              monitoring plan and compared it to the requirements set forth in USAID’s
                                              Automated Directives System. We determined if data quality assessments
                                              were completed, baselines were established, and if data agreed to source
                                              documents. We also obtained information as to what other methods for
                                              monitoring HIV/AIDS program performance were being used by the Mission.

                                              To answer the second objective, we analyzed planned and actual data for the
                                              indicators presented in the Mission’s performance monitoring plan. Actual
                                              data were traced to source documents. For field support activities, we
                                              interviewed Mission officials, reviewed documents for accuracy, interviewed



                                                                                                                                                                                                23
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              Family Health International officials in New Delhi to obtain understanding of
                                              activities funded through field support mechanisms, and visited a children
                                              affected by AIDS program in New Delhi.

                                              For objective three, we reviewed USAID’s “Handbook of Indicators for
                                              HIV/AIDS/STI Programs”, USAID’s Expanded Response to the Global
                                              HIV/AIDS Pandemic—Monitoring & Evaluation Guidance, a draft dated
                                              February 2001, and the status of the Mission’s implementation of this
                                              guidance. For all the above efforts, we reviewed applicable Federal and
                                              USAID regulations and guidance; interviewed Mission officials and reviewed
                                              Mission documents; interviewed project officials and reviewed project
                                              documents; interviewed participating NGO personnel, peer educators and
                                              program recipients; and visited program sites.

                                              We traveled to the state of Tamil Nadu and visited participating NGOs to
                                              review activities under the APAC program including preventative activities
                                              for high-risk groups (i.e., truckers, commercial sex workers, etc.), counseling,
                                              condom promotion, street plays and STD referrals. We also visited
                                              collaborating GOI health units that obtain referrals of STD cases from NGOs
                                              and visited brothels to interview commercial sex workers.

                                              In assessing the accuracy of data reported for the Mission's two key performance
                                              indicators, we used two materiality thresholds. First, for transcription error, we
                                              used an accuracy threshold of plus or minus one percent. Second, for
                                              computation accuracy we used an accuracy threshold of plus or minus five
                                              percent.




                                                                                                                                                                                                24
______________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                         Appendix II


 Management Comments

                                                                                                                                    November 21, 2001


                                              To:                          Bruce N. Boyer, RIG/ Manila

                                              From:                        Walter E. North, Mission Director, USAID/India /s/

                                              Subject:                     Draft Audit Report for the Audit of USAID/India’s Monitoring
                                                                           of the Performance of its HIV/AIDS Program

                                              Reference:                   Your transmittal memo dated October 18, 2001

                                              This is USAID/India’s response to the subject draft report. We appreciate the
                                              findings of the audit report and feel that many of them will help in
                                              strengthening our performance monitoring system. The text below provides
                                              USAID/India’s comments on the audit recommendations.

                                              The APAC Project of USAID/India in Tamil Nadu is recognized as a
                                              successful targeted intervention project and has provided valuable lessons.
                                              The Government of India also recognizes the success of this project and has
                                              designated APAC as the Technical Resource Group for providing leadership
                                              to the country on targeted interventions. An independent mid-term evaluation
                                              of the project was positive.

                                              It is mentioned in the report that the Mission did not systematically collect
                                              data on HIV prevalence rated in Tamil Nadu (page 9). As we informed the
                                              auditors, the Mission does not collect prevalence data in Tamil Nadu. The
                                              Government of Tamil Nadu and the Government of India are already
                                              collecting prevalence data systematically as part of their sentinel sero-
                                              surveillance exercise and therefore we do not want to duplicate efforts.

                                              Recommendation # 1: Establish indicators for strategic objectives and
                                              intermediate results/scale down the strategic objectives and IRs : We
                                              agree with the Recommendation and will establish appropriate performance
                                              indicators for the SO level result or we will scale down the SO and
                                              intermediate results. In developing the finding, we suggest you modify or
                                              delete paragraph 3 on page 9 since it might be read to infer that the Mission
                                              may have been misleading stakeholders, which was definitely not our intent.

                                              Recommendation No. 2 “USAID/India should: 1) include some type of
                                              performance measure in its performance monitoring plan to measure



                                                                                                                                                                                                25
______________________________________________________________________________________________________________________________________________________________________________________________________




                                              whether women are receiving appropriate sexually-transmitted care, and
                                              2) disclose known data limitations including inconsistency in reporting in
                                              the Comments Section of the R4.”

                                                     2.1 Performance Indicator on Women’s STI CARE: USAID/India
                                                     agrees that this recommendation is actionable in that a performance
                                                     measure on whether women are receiving appropriate STD care should be
                                                     included. In fact, we were reporting this data until 1998 in our R4. Based
                                                     upon your recommendation we will include this performance measure and
                                                     start reporting on it in the next reporting period. However, we wish to put
                                                     on record that there is a wide margin or error in the results reported against
                                                     this measure because of the asymptomatic nature of these infections.

                                                     2.2 The Mission has taken note of these valid observations but we
                                                     recommend that No.2.2 be dropped since R4 reporting has been
                                                     discontinued.

                                              Recommendation No. 3” “USAID/India include performance measure(s)
                                              for significant field support activities in its performance monitoring
                                              plan”. The monitoring of field support funds is critical. Final management
                                              authority for field support activities is vested in AID/W. We are consulting
                                              with AID/W for guidance on the Agency’s view on this subject.

                                              Recommendation No 4: “USAID/India establish a timeframe to begin
                                              STD care interventions among male factory workers in the state of Tamil
                                              Nadu.” The Mission agrees with the recommendation. A situational analysis
                                              of the industrial sector in the state of Tamil Nadu has already been conducted
                                              (report can be provided on request). The APAC project plans to start inviting
                                              proposals aimed at initiating STD care interventions among industrial workers
                                              in Tamil Nadu from April 2002 onwards. We expect on-the-ground activities
                                              for STD care interventions to start by July 2002.

                                              Recommendation No. 5: “USAID/India develop an implementation plan
                                              with major actions and timeframes to meet the remaining condition
                                              precedent and start HIV/AIDS interventions in Maharashtra.

                                              The Mission accepts this recommendation. All pending CPs should be met by
                                              December 31, 2001. Sub grants to NGOs should begin by June 2002.

                                              Based on the above, we request you to consider a management decision as
                                              having been taken upon issuance of the report for recommendation numbers 2,
                                              4 and 5.




                                                                                                                                                                                                26
______________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                       Appendix III

Rapid Scale-Up and Intensive Focus Countries


                                              •       Rapid Scale-Up Countries are defined as countries that will receive a
                                                      significant increase in resources to achieve measurable impact within
                                                      one-to-two years. This will result in an extremely rapid scaling up of
                                                      prevention programs and enhancement of care and support activities.
                                                      Rapid Scale-Up countries include:

                                                      Cambodia                                         Kenya                                                     Uganda
                                                      Zambia

                                              •       Intensive Focus Countries are defined as countries where resources will
                                                      be increased and targeted to reduce prevalence rates (or keep prevalence
                                                      low in low prevalence countries), to reduce HIV transmission from
                                                      mother to infant and to increase support services for people (including
                                                      children) living with and affected by AIDS within three-to-five years.
                                                      Intensive Focus Countries include:

                                                      Ethiopia                                         Nigeria                                                   Brazil
                                                      Ghana                                            Rwanda                                                    India
                                                      Malawi                                           Senegal                                                   Russia
                                                      Mozambique                                       South Africa
                                                      Namibia                                          Tanzania

                                              •       Basic Countries are defined as countries that USAID will support host
                                                      country efforts to control the pandemic. USAID programs will continue
                                                      to provide assistance, focusing on targeted interventions for populations
                                                      who engage in high-risk behavior. In these countries, there will be an
                                                      increased emphasis on maintaining credible surveillance systems in order
                                                      to monitor HIV trends and allow timely warning of impending
                                                      concentrated epidemics of HIV. In addition, USAID will assist country
                                                      institutions to identify additional sources of funding to expand
                                                      programming.




                                                                                                                                                                                                27
___________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                                                                                                              Appendix IV

                                                  Summary of USAID/India’s Performance Monitoring Controls of HIV/AIDS Program
                             Performance Monitoring Plan
                             1.                    2.                    3.                    4.                    5.                       6.                     7.                    8.                     9.                      10.             11.
  Indicator                  Indicator             Data                  Data                  Data                  Responsibility           Data                   Quality               Data                   Baseline                Data            Other Means of
                             Precisely             Sources               Collection            Collection            Assigned                 Limitations            Assessment
                             Defined               Identified            Method                Schedule                                       Disclosed              Procedures
                                                                                                                                                                                           Quality                Established             Agrees          Monitoring
                                                                         Described             Specified                                                             Described             Assessment                                     To              (If yes, indicate type)
                                                                                                                                                                                           Done*                                          Source

  Condom Use                 Yes                   Yes                   Yes                   Yes                   Yes                      Yes**                  Yes                   Yes                    Yes                     Yes             Yes (External Mid –Term
                                                                                                                                                                                                                                                          Evaluation)
                                                                                                                                                                                                                                                          Yes (External Mid-Term
  STD Care                   No                    Yes                   Yes                   Yes                   Yes                      Yes**                  Yes                                          Yes                     Yes             Evaluation)
                                                                                                                                                                                           Yes




       *Per the ADS, data quality assessments are required for indicators used to report progress in the annual Results Review and Resource Request (R4)
       report, and for data included in special reports to Congress and other oversight agencies.

       **Data Limitations were disclosed in the Mission PMP but not in its R4 Report.

       Note: The above schedule only summarizes the controls for the two indicators included in the Mission’s Performance Monitoring Plan. Please refer
       to pages 6 to 13 for discussions on improvements needed on the Mission’s overall performance monitoring system pertaining to its HIV/AIDS
       program.




                                                                                                                                                                                                                                                                                              28
